Library of Congress Office of
Inspector General System Review
Report




                          September 3, 2013
                          Report No. 520
                                             U N I TE D S T A TES 

                            SECU R ITIES A ND EXCHANGE CO MM ISSIO N 

                                       WA SHI NGTON , D . C .   2 05 49 



     OFFICE OF
INSPECTOR GENERA l.




              September 3, 2013

              Karl W . Schornagel 

              Inspector General 

              Library of Congress 

              101 Independence Avenue , S.E. 

              Washington , D.C . 20540-1060 


              Subject: System Review Report on the Library of Congress Office of Inspector
              General Audit Organization

              Dear·Mr. Schornagel,

             Attached is the final System Review Report of the Library of Congress Office of
             Inspector General audit organization conducted in accordance with Government
             Auditing Standards and Council of the Inspectors General on Integrity and
             Efficiency guidelines. Your response to the draft report is included as Enclosure 2 .

             We thank you and all of your staff that we dealt with for your assistance and
             cooperation during the conduct of the review.



           tfiw~!~
             lnspectC?r General


             Attachment
                               System Review Report

September 3, 2013

Karl W. Schornagel
Inspector General
Library of Congress
101 Independence Avenue, S.E.
Washington, D.C. 20540-1060

Dear Mr. Schornagel,

We have reviewed the system of quality control for the audit organization of the
Library of Congress (LOC) Office of Inspector General (OIG) in effect for the year
ended March 31, 2013. A system of quality control encompasses the LOC OIG’s
organizational structure and the policies adopted and procedures established to
provide it with reasonable assurance of conforming with Government Auditing
Standards. The elements of quality control are described in Government
Auditing Standards. The LOC OIG is responsible for designing a system of
quality control and complying with it to provide the LOC OIG with reasonable
assurance of performing and reporting in conformity with applicable professional
standards in all material respects. Our responsibility is to express an opinion on
the design of the system of quality control and the LOC OIG’s compliance
therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards
and guidelines established by the Council of the Inspectors General on Integrity
and Efficiency (CIGIE). During our review, we interviewed the LOC OIG
personnel and obtained an understanding of the nature of the LOC OIG audit
organization, and the design of the LOC OIG’s system of quality control sufficient
to assess the risks implicit in its audit function. Based on our assessments, we
selected engagements and administrative files to test for conformity with
professional standards and compliance with the LOC OIG’s system of quality
control. The engagements selected represented a reasonable cross-section of
the LOC OIG’s audit organization, with emphasis on higher-risk engagements.
Prior to concluding the review, we reassessed the adequacy of the scope of the
peer review procedures and met with the LOC OIG’s management to discuss the
results of our review. We believe that the procedures we performed provide a
reasonable basis for our opinion.




LOC OIG System Review Report                                       September 3, 2013
Report No. 520
                                      Page 1
In performing our review, we obtained an understanding of the system of quality
control for the LOC OIG’s audit organization. In addition, we tested compliance
with the LOC OIG’s quality control policies and procedures to the extent we
considered appropriate. These tests covered the application of the LOC OIG’s
policies and procedures on selected engagements. Our review was based on
selected tests; therefore, it would not necessarily detect all weaknesses in the
system of quality control or all instances of noncompliance with it.

There are inherent limitations in the effectiveness of any system of quality
control, and therefore noncompliance with the system of quality control may
occur and not be detected. Projection of any evaluation of a system of quality
control to future periods is subject to the risk that the system of quality control
may become inadequate because of changes in conditions, or because the
degree of compliance with the policies or procedures may deteriorate.

Enclosure 1 to this report identifies the audit engagements that we reviewed.

In our opinion, the system of quality control for the audit organization of the LOC
OIG in effect for the year ended March 31, 2013, has been suitably designed and
complied with to provide the LOC OIG with reasonable assurance of performing
and reporting in conformity with applicable professional standards in all material
respects. Federal audit organizations can receive a rating of pass, pass with
deficiencies, or fail. The LOC OIG has received a peer review rating of pass.

As is customary, we have issued a letter dated September 3, 2013, that sets
forth a finding that was not considered to be of sufficient significance to affect our
opinion expressed in this report.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in
accordance with guidance established by the CIGIE related to the LOC OIG’s
monitoring of engagements performed by Independent Public Accountants (IPA)
under contract where the IPA served as the principal auditor. It should be noted
that monitoring of engagements performed by IPAs is not an audit and therefore
is not subject to the requirements of Government Auditing Standards. The
purpose of our limited procedures was to determine whether the LOC OIG had
controls to ensure IPAs performed contracted work in accordance with




LOC OIG System Review Report                                           September 3, 2013
Report No. 520
                                       Page 2
professional standards. However, our objective was not to express an opinion
and, accordingly, we do not express an opinion, on the LOC OIG's monitoring of
work perfonned by IPAs.

Sincerely,



~~dr
Inspector General

Enclosures (2)




LOC OIG System Review Report                                    September 3. 2013
Report No. 520
                                   Page3
                                            Scope and Methodology (Enclosure 1)

Scope and Methodology

We tested compliance with the LOC OIG audit organization’s system of quality
control to the extent we considered appropriate. These tests included a review of
2 of 3 audit reports issued during the period April 1, 2012 through March 31,
2013, and semiannual reporting periods ending September 30, 2012 and March
31, 2013. These tests also included a review of a nonaudit service report that
the LOC OIG issued during the period April 1, 2011 through March 31, 2012, and
an internal quality control review that a contractor hired by the LOC OIG
performed.

In addition, we reviewed the LOC OIG’s monitoring of an engagement performed
by an IPA, where the IPA served as the principal auditor, during the period April
1, 2012 through March 31, 2013. During this period, the LOC OIG contracted for
the audit of its agency’s Fiscal Year 2011 Open World Leadership Center
financial statements. The LOC OIG also contracted for certain other
engagements that were to be performed in accordance with Government
Auditing Standards.

Reviewed Engagements Performed by the LOC OIG

Report No.            Report Date 	              Report Title
2011-PA-108           September 30, 2012	        Opportunities Exist to Improve
                                                 the Security and Management of
                                                 the Asian Division Collections

2013-PA-101           March 29, 2013	            Working Towards the Spirit of the
                                                 Government Performance and
                                                 Results Modernization Act

Reviewed Nonaudit Service Performed by the LOC OIG

Report No.            Report Date 	              Report Title
2011-SP-105           January 1, 2012            Comparative Analysis of
                                                 the Contracts Office’s Workload
                                                 and Staffing Levels

Reviewed Monitoring File of the LOC OIG for Contracted Engagement

Report No.            Report Date                Report Title
2011-FN-103           July 10, 2012              Open World Leadership Center
                                                 FY 2011 Financial Statements

LOC OIG System Review Report                                        September 3, 2013
Report No. 520
                                        Page 4
                                        LOC OIG Response (Enclosure 2)




LOC OIG System Review Report                             September 3, 2013
Report No. 520
                               Page 5
